 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
BUREAU OF JUSTICE ASSISTANCE AWARD TO THE
   NATIONAL CRIME PREVENTION COUNCIL


           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


          Audit Report GR-30-12-002
                  May 2012
This Page Left Intentionally Blank
            AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
           BUREAU OF JUSTICE ASSISTANCE COOPERATIVE
           AGREEMENT AWARDED TO THE NATIONAL CRIME
                      PREVENTION COUNCIL

                             EXECUTIVE SUMMARY

      The Department of Justice (DOJ) Office of the Inspector General (OIG)
completed an audit of cooperative agreement number 2010-DB-BX-K023 in
the amount of $2,400,000 awarded to the National Crime Prevention Council
(Prevention Council). The Prevention Council’s mission is to help promote
crime prevention by providing training, technical assistance, publications,
and public service announcements to local communities.

       We conducted this audit to determine whether costs claimed under the
cooperative agreement were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
award. Unless otherwise stated in the report, we applied the 2009 Office of
Justice Programs (OJP) Financial Guide (Financial Guide) as our primary
criteria. 1

       Our audit found that the transactions we reviewed were generally
properly authorized, classified, supported, and charged to the cooperative
agreement. However, the Prevention Council could improve its internal
controls to ensure compliance with DOJ cooperative agreement
requirements. For example, the Prevention Council did not have a review
process in place over the calculation of its labor costs charged to the
cooperative agreement, which resulted in the misapplication of personnel
costs to the award. Further, the Prevention Council did not maintain vendor
files with necessary documentation to support the negotiations and basis for
selecting contractors used under this cooperative agreement.

      Additionally, our audit determined that the Prevention Council charged
the cooperative agreement more than $3,220 in costs that we consider
unallowable or unsupported. These questioned costs included the following:




       1
          The Financial Guide serves as a reference manual that assists award recipients in
their fiduciary responsibility to safeguard award funds and ensure funds are used
appropriately. OJP requires award recipients to abide by the requirements in the OJP
Financial Guide.
  •   Travel costs totaling over $1,800. The Prevention Council incurred
      over $1,800 for travel that benefitted more than one award; however,
      the grantee charged the entire $1,800 to the DOJ cooperative
      agreement 2010-DB-BX-K023.

  •   Over $1,300 for two computers and two monitors that were not
      included in the budget for this award.

      Our report contains 5 recommendations. We discussed the results of
our audit with Prevention Council officials and have included their comments
in the report as applicable.




                                     ii
                                    Table of Contents
                                                                                                Page

INTRODUCTION ................................................................................ 1
  Audit Approach .................................................................................. 1

FINDINGS AND RECOMMENDATIONS................................................ 3
  Reporting .......................................................................................... 3
    Federal Financial Reports.................................................................. 4
    Progress Reports ............................................................................. 4
  Drawdowns ....................................................................................... 5
  Budget Management and Control ......................................................... 6
  Cooperative Agreement Expenditures ................................................... 6
    Personnel Costs............................................................................... 7
    Other Direct Costs ........................................................................... 8
    Indirect Costs ............................................................................... 11
  Contract Management ...................................................................... 11
  Recommendations ............................................................................ 12

SCHEDULE OF DOLLAR-RELATED FINDINGS ................................... 13

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 14

APPENDIX II – NATIONAL CRIME PREVENTION COUNCIL’S
    RESPONSE TO THE DRAFT REPORT ......................................... 14

APPENDIX III - OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE
    DRAFT AUDIT REPORT ............................................................ 22

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS
    AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE
    REPORT ….. ............................................................................ 25
                              INTRODUCTION

      The Office of the Inspector General, Audit Division, has completed an
audit of cooperative agreement 2010-DB-BX-K023 in the amount of
$2,400,000 awarded to the National Crime Prevention Council (Prevention
Council) from the Bureau of Justice Assistance (BJA). The Prevention
Council was founded in 1982 to help communities learn about crime
prevention, engage community members, and coordinate with local agencies
to support crime prevention. It accomplishes this objective through the use
of publications, teaching materials, programs implemented within
communities and schools, training, and public service announcements.

       The Prevention Council award is to assess the current awareness of
targeted audiences within the general public towards emerging crime trends
in intellectual property crime, mortgage fraud, and crimes against seniors.
Further, the Prevention Council is responsible for generating public
awareness, motivating target audiences to change their behavior to address
emerging crime trends, providing training and technical assistance for
groups to create local awareness campaigns, and sustaining the education
campaign through partnerships.

                    Exhibit 1: Summary of Awards Audited

                                                                               Award
    Awards               Type of Award                Award Period           Amount ($)
2010-DB-BX-K023     Cooperative Agreement    6/1/2010-5/31/2012                   2,000,000
2010-DB-BX-K023     Supplement               6/1/2010-5/31/2014                     400,000
                                                          TOTAL                 $2,400,000
Source: Grants Management System award documentation

Audit Approach

      We conducted this audit to determine whether costs claimed under the
award are allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the award. To
accomplish this objective, we tested compliance with what we considered the
most important conditions of the award. Unless otherwise stated in the
report, we used the Office of Justice Programs (OJP) Financial Guide
(Financial Guide) to assess the Prevention Council’s performance and
compliance with award requirements. 1

       1
          The Financial Guide serves as a reference manual that assists award recipients in
the fiduciary responsibility to safeguard award funds and ensure funds are used
appropriately. OJP requires award recipients to abide by the requirements in the OJP
Financial Guide.
      Specifically, we tested what we believed to be critical award
requirements necessary to meet the objectives of the audit, including:

  •   Reporting to determine if the required federal financial reports and
      progress reports were submitted timely and accurately reflected award
      activity;

  •   Drawdowns to determine whether award drawdowns were
      adequately supported and if the awardee was managing receipts in
      accordance with federal requirements;

  •   Budget Management and Control to ensure that the awardee
      appropriately tracked costs to approved budget categories;

  •   Cooperative Agreement Expenditures to determine the accuracy
      and allowability of costs charged to the award; and

  •   Contract Management to ensure compliance with overall financial
      management requirements for contracts.

       The award did not include program income, matching funds, or
subgrantees. Although we reviewed progress reports and interviewed award
officials, we did not assess the overall program performance supported by
the Department of Justice (DOJ) award since our preliminary review did not
indicate performance issues. Therefore, our audit concentrated on the
Prevention Council’s financial management of the cooperative agreement.
Appendix I contains additional information on our objective, scope, and
methodology.




                                     2
              FINDINGS AND RECOMMENDATIONS

           COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

       Our audit found that the transactions we reviewed were
       generally properly authorized, classified, supported, and charged
       to the cooperative agreement. However, we identified instances
       of immaterial errors in the recording of labor costs that are
       consistent with findings from the Prevention Council’s 2009
       Single Audit, and identified $3,220 in unallowable and
       unsupported travel and equipment expenses. Additionally, we
       noted that the Prevention Council did not maintain and could not
       provide complete documentation supporting some procurement
       decisions.

Reporting

      The special conditions of the cooperative agreement require that the
Prevention Council comply with administrative and financial requirements
outlined in the Financial Guide and comply with the requirements of the
Office of Management and Budget (OMB) Circular A-133, Audits of States,
Local Governments and Non-Profit Organizations (Single Audit). 2 The
Financial Guide requires that grantees submit both financial and program
progress reports to inform awarding agencies on the status of each award.
Federal Financial Reports (FFRs) should detail the actual expenditures
incurred for each quarterly reporting period, while progress reports should
be submitted semiannually and describe the activities, obstacles, and
achievements supported by each award.

       Because accurate and timely FFRs and progress reports are necessary
to ensure that DOJ awarding agencies can effectively monitor agreement
activities and expenditures, we reviewed the Prevention Council’s reports for
award number 2010-DB-BX-K023. As detailed in the following sections, the
Prevention Council generally submitted required FFRs and progress reports
in a timely manner. Additionally, the FFRs accurately reported cooperative
agreement expenditure activity, while the progress reports accurately
described program accomplishments.


       2
          OMB Circular A-133 requires non-federal entities that expend at least $500,000 a
year in federal awards to have an audit conducted of its financial statements. The purpose
of the audit, also known as a Single Audit, is to determine whether the financial statements
and schedule of expenditures of federal awards are presented fairly in all material respects
in conformity with generally accepted accounting principles. We reviewed the Prevention
Council’s Single Audits for Fiscal Years 2007, 2008, 2009, and 2010.

                                             3
Federal Financial Reports

      DOJ awarding agencies monitor the financial performance of each
cooperative agreement via FFRs. According to the Financial Guide, FFRs
should be submitted within 30 days after the end of each quarterly reporting
period. Even when there have been no outlays of cooperative agreement
funds, a report containing zeroes must be submitted. Awarding agencies
may withhold funds or future awards if reports are submitted late, or not at
all.

      To verify the timeliness of the FFRs, we tested the last four reports
submitted for the audited cooperative agreement. We compared the
submission date of each report to the date each report was due, and found
that the Prevention Council submitted all four FFRs in a timely manner.

      The Financial Guide also states that the grantee’s general ledger must
support all amounts reported on the FFRs. To verify the accuracy of the
FFRs, we discussed the FFR processes with the Prevention Council financial
consultant, compared the amounts reported on the last four FFRs to
expenditures recorded in the Prevention Council’s accounting records, and
reviewed adjusting entries. Based on our testing, we have concluded that
the FFRs reconciled to the financial records.

Progress Reports

       While FFRs report cooperative agreement financial activity, progress
reports describe the project status and accomplishments of the DOJ-
cooperative agreement supported program or project. Progress reports
should also describe the status of the project and compare actual
accomplishments to anticipated grant objectives. According to the Financial
Guide, grantees are required to submit progress reports every six months
during the performance period of the award. Progress reports are due 30
days after the end of each semi-annual reporting period, June 30 and
December 31. DOJ awarding agencies may withhold grant funds if grantees
fail to submit accurate progress reports on time.

      To assess whether the Prevention Council submitted progress reports
on time, we reviewed three progress reports for the last two years and
compared the submission dates to the due date for each progress report.
Out of the three progress reports tested, we determined that one was not
submitted in a timely manner. 3

      3
         Progress report for the period January 2010 through June 2010 was submitted on
January 21, 2011, which is 175 days late. The late report caused a withholding of funds.

                                            4
       According to the Prevention Council, the first progress report was 175
days late because it was not aware that a June 30, 2010 semi-annual report
would be required for this grant received on July 14, 2010 with a budget
period effective June 1, 2010. The Prevention Council also explained that
while it was aware of the quarterly requirement for progress reporting
through the Training and Technical Assistance Reporting System, it was not
aware that a separate report also had to be submitted on a semiannual basis
to satisfy the progress reporting requirements. The Prevention Council
advised that once it became aware that the separate report was required it
submitted the report immediately. Since then, the Prevention Council has
submitted all the necessary progress reports on time. Therefore, we
consider the late progress report to be an isolated incident.

      To determine if the Prevention Council’s progress reports contained
achievements related to its program goals and objectives, we analyzed and
compared the progress reports for the two most recent semi-annual periods
to the program objectives. To assess the accuracy of the progress reports,
we selected a sample of achievements and compared them to source
documentation maintained by the Prevention Council. From our review, we
determined the progress reports accurately reflected program goals and
achievements as set forth in the cooperative agreement.

Drawdowns

      To obtain DOJ award money, award recipients must electronically
request grant funds via drawdowns. The Financial Guide states that award
recipients should only request federal award funds when they incur or
anticipate project costs. Therefore, recipients should time their requests for
award funds to ensure they will have only the minimum federal cash on
hand required to pay actual or anticipated costs within 10 days.

      According to the Prevention Council’s financial management policies,
drawdown requests are based on the minimum amount needed for
immediate disbursement or reimbursements of expenses for salaries, fringe
benefits, indirect costs, and services or supplies. Prevention Council officials
confirmed that they follow their policy and usually request a drawdown twice
per month. To ensure that the Prevention Council requested funds properly
and kept minimum federal cash on hand, we analyzed its drawdowns to date
and compared the overall amount to the Prevention Council’s general ledger.




                                       5
Overall we found that the amounts drawn down reconciled with the
expenditures recorded in the accounting records. 4

Budget Management and Control

       The Financial Guide states that awardees should expend funds
according to the budget approved by the awarding agency and included in
the final award. Approved award budgets document how much the recipient
is authorized to spend in high-level budget categories, such as personnel,
supplies, and contractors. The Financial Guide also states that award
recipients may request a modification to approved award budgets to
reallocate amounts between various budget categories within the same
award. No prior approval is required if the reallocations between budget
categories do not exceed 10 percent of the total award amount. We
compared the actual amounts spent in each budget category to the
budgeted amounts in the same categories. For award 2010-DB-BX-K023,
the Prevention Council adhered to the Financial Guide requirements.

Cooperative Agreement Expenditures

       According to 2 C.F.R. Part 230, Cost Principles for Non-Profit
Organizations (formerly known as OMB Circular A-122), costs are allowable
if they are reasonable, consistently applied, adequately documented, comply
with policies and procedures, and conform to any limitations or exclusions
specified in applicable criteria. As of November 28, 2011, the Prevention
Council’s general ledger reported $661,371 in project costs associated with
award 2010-DB-BX-K023. We sampled $547,941 (83 percent) in expenses
charged to the cooperative agreement to ensure they were allowable, and
identified $3,220 in questioned costs. 5 Exhibit 2 displays by type of sampled
cost, the total value of the expenditures in each category, and the amount of
questioned costs our testing identified.



      4
         Our initial testing revealed that from June 1, 2010 to November 28, 2011, the
Prevention Council had drawn down $57,991 more than the general ledger supported. We
discussed the difference with the Prevention Council, who explained that a contractor
payment of $62,500 was reversed out of the general ledger in error and subsequently
provided documentation supporting the $62,500 did in fact belong and was recognized
within the 2010-DB-BX-K023 award. Therefore, the accounting records support the
drawdown amount.
      5
          Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

                                            6
              Exhibit 2: Summary of Review of Cooperative
                    Agreement Expenditures

                                    Total General           Questioned
              Type of Cost         Ledger Costs ($)          Costs ($)
           Personnel Costs                        226,701                0
           Other Direct Costs                     298,649            3,220
           Indirect Costs                         136,021                0
                        TOTAL                  $ 661,371           $ 3,220
          Source: Prevention Council accounting records and OIG analysis of
                  total questioned costs

Personnel Costs

       We reviewed the Prevention Council’s policies for timekeeping and
charging costs associated with salaries earned by its personnel. The
Prevention Council requires all employees to submit timesheet reports that
detail their time spent on each project or grant each pay period. Once the
employees complete the timesheet they submit their timesheets to their
supervisors for approval and then to the payroll accountant. The payroll
accountant prepares a labor distribution report schedule, which details the
total hours worked for each award and calculates both the salary and fringe
benefit expenses the Prevention Council will charge to each grant or award.
According to the Prevention Council’s procedures, the supervisory
accountant then reviews and approves the distribution report and records
the salaries and fringe benefits expense entry for each award into their
general ledger.

       The Prevention Council’s 2009 Single Audit report had findings citing
differences between the hours recorded on the timesheets and what was
actually charged to its grants. To determine if timesheets were properly
authorized and allocated to the cooperative agreement, we judgmentally
selected four non-consecutive pay periods and reviewed employee-
submitted timesheets for each of these sampled pay periods. 6 We examined
timesheets and payroll distribution records, we recalculated salaries and
fringe benefits allocated to the cooperative agreement, and we ascertained
whether the salaries and fringe benefits were properly charged to the
cooperative agreement.




      6
        We selected pay periods February 28, 2011, May 31, 2011, December 15, 2010,
and March 31, 2011 for our testing.

                                           7
      Salaries

       We compared the total labor hours charged by each labor distribution
report to the corresponding timesheets and found six instances where the
number of hours on the timesheets did not match the hours recorded on the
labor distribution report resulting in inaccurate labor charged to the
cooperative agreement. We also reviewed the total hours worked on the
timesheets and noted two instances where the totals on the timesheets were
calculated incorrectly. The Prevention Council attributed these errors to
clerical mistakes.

       While the cumulative dollar effect of these errors was not material, it
appears an internal control is not being consistently applied. According to
the Prevention Council policies, the supervisory accountant is supposed to
review and approve the distribution report. Therefore, we recommend that
OJP require the Prevention Council to ensure that all timesheets and labor
distribution reports are accurate and therefore personnel costs are
appropriately charged to the DOJ award.

      Fringe Benefits

      When the Prevention Council employees work on grant projects, the
Prevention Council incurs costs associated with providing its employees
fringe benefits such as payroll taxes, health insurance, and sick leave. To
allocate the cost of fringe benefits to DOJ grants, the Prevention Council
calculated and OJP approved a fringe benefit rate that the Prevention Council
applied to direct payroll costs. During our initial transaction testing, we
judgmentally selected four fringe benefit transactions corresponding to our
four payroll periods tested above. We determined that the Prevention
Council properly applied the approved fringe benefit rate.

Other Direct Costs

      We selected a judgmental sample of 33 other direct cost transactions
from award 2010-DB-BX-K023 totaling $371,035 to determine if the charges
were included in the approved budget, allowable, and allocable to the DOJ
award. As shown in Exhibit 3, we questioned $3,220 of other direct costs.




                                       8
          Exhibit 3: Summary of Questioned Other Direct Costs

             General Ledger
     Account                         Amount      Questioned
    Description       Date             ($)       Amount ($)               Note
                                                                  Misclassified expense;
 Media Consultants      06/01/2011      17,962                0
                                                                  grantee has corrected
                                                                  Unsupported; Dual
 Travel – Consultants   01/21/2011         719             719
                                                                  purpose travel
                                                                  Unsupported; Dual
 Travel – Staff         09/28/2010         601             601
                                                                  purpose travel
                                                                  Unsupported; Dual
 Travel – Staff         09/28/2010         539             539
                                                                  purpose travel
                                                                  Unallowable expense;
 Travel – Staff         09/24/2010         450                0
                                                                  grantee has corrected
 Computers – Non
                        09/28/2011       2,047           1,024    Unallowable equipment
 Capital
 Computers – Non
                        11/02/2011         337             337    Unallowable equipment
 Capital
                            TOTAL     $22,655            $3,220
Source: OIG analysis of Prevention Council’s general ledger and supporting documentation

      Misclassified Expense

      The Prevention Council incorrectly charged a media consultant fee of
$17,962 to 2010-DB-BX-K023 when it should have been charged to another
award (2010-DB-BX-K088). The Prevention Council agreed the invoice was
misclassified and removed the invoice cost from the 2010–DB-BX-K023
award and correctly charged the $17,962 to award 2010-DB-BX-K088. 7
Because the grantee has remedied the misclassification, we are not
questioning the costs.

      Unsupported travel

      Three travel related expenses totaling $1,859 ($719, $601, and $539)
were charged entirely to the 2010-DB-BX-K023 award when the travel had a
dual purpose and should have been allocated between the 2010 award and




      7
         The Prevention Council stated that the $17,962 was misclassified because they
believed the 2010-DB-BX-K088 award was a supplement to the 2010-DB-BX-K023 award
and not a separate award.


                                           9
another award (2010-DB-BX-K088). 8 Because the Prevention Council could
not determine the amount of travel allocable to the 2010-DB-BX-K023
award, we question the entire amount of $1,859 in travel related expenses
and recommend that OJP remedy the questioned travel costs. Further, we
recommend that OJP require the Prevention Council improve its processes
for identifying and allocating dual purpose expenses.

      Unallowable travel advance

       An employee received a $450 travel advance prior to a conference.
However, most of the employee’s actual travel expenses were charged to
the Prevention Council credit card and an additional $168 was reimbursed
directly to the employee for out of pocket expenses. The Prevention Council
agreed that a portion of the prepaid should have been returned to the grant
funds, obtained reimbursement from the employee for the proper amount
owed, and credited the amount back to the 2010-DB-BX-K023 award. The
Prevention Council stated that in the future, it would be recording travel
advances as employee receivables and reconciling the receivables at the end
of each month. We believe that these procedures will mitigate chances of
outstanding prepaids in the future. Therefore, we recommend that OJP
direct the Prevention Council to include in their formal procedures, a process
for tracking and reconciling funds advanced to employees.

      Unapproved equipment

       The Prevention Council was approved for two laptop computers;
however, during our testing we noted that in addition to the laptop
computers they purchased two monitors and computers. The Prevention
Council purchased the additional equipment because it determined the
equipment originally purchased could not handle the new technology used
by their contractors. The Prevention Council did not get written approval to
purchase the additional equipment and therefore we consider the two
computers, costing $1,024 and the two monitors costing $337 unallowable.
We recommend that OJP remedy the $1,361 in unapproved equipment
costs.




      8
          The Prevention Council acknowledged the $1,859 of travel benefited two awards
with similar goals; however, the travel was allocated to only the 2010-DB-BX-K023 award.
The Prevention Council stated that the reason the $1,859 was allocated entirely to the
2010-DB-BX-K023 award was because they originally believed the work and award dollars
associated with the 2010-DB-BX-K088 award was going to supplement to the 2010-DB-BX-
K023 award and not be a separate award.

                                           10
Indirect Costs

       Indirect costs are those that have been incurred for common or joint
objectives and cannot be readily identified with a particular final cost
objective such as a grant or contract. Included in the Prevention Council’s
indirect costs are: administrative salaries, printing, telephone, supplies,
postage, insurance, and rent. Because these indirect costs cannot be easily
allocated to specific projects or activities, organizations need to establish
and seek approval for an indirect cost rate with their federal agency to
receive payment for indirect expenses. However, the Financial Guide states
that if a recipient does not have an approved indirect cost rate, funds
budgeted for indirect costs cannot be recoverable until a rate is approved.

      We obtained the supporting documentation for OJP’s approved indirect
cost rate for the Prevention Council. We also reviewed the reasonableness
of the Prevention Council’s calculations for determining the rate as well as
the types of costs which belonged in the base that the Prevention Council
applied the indirect rate to. We found that as of November 28, 2011, the
Prevention Council charged indirect costs totaling $136,021 to this DOJ
cooperative agreement. We determined that the Prevention Council properly
applied the approved indirect rate.

Contract Management

      We reviewed the Prevention Council’s 2009 and 2010 Single Audit
reports and noted that both audits found inadequate documentation of the
basis for vendor selection. 9 As a result of the Single Audits, the Prevention
Council implemented procurement policies, dated September 17, 2010, that
require negotiations and final contract documents to be in writing and
properly maintained in the program manager’s grant files.

       We obtained the listing of contractors and corresponding contracts
issued under this award and noted that there were two formal contracts.
The first contract was to conduct a national survey and produce several
media outreach deliverables totaling $907,183. The second contract was to
renew a software services agreement to manage public relations in the
amount of $40,000. We found that both contracts were solicited through a
formal request for proposal and competitively awarded by the Prevention
Council. While the Prevention Council officials were able to provide
justifications for each of the awards, we were unable to determine from their

      9
          According to 2CFR Part 215, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and other Non-Profit
Organization (formerly OMB Circular A-110), requires that the auditee keep at a minimum,
the basis for contractor selection, as well as the basis for award cost or price.

                                           11
documentation if they performed a cost or price analysis and therefore could
not determine whether the vendor selected provided the best value to the
government. Specifically, negotiations were not formally documented and
maintained in the program managers’ grant files for either contract. In
order to ensure that contracts are fairly and competitively negotiated and
obtain the goods or services in an effective manner, we recommend that OJP
require the Prevention Council to clearly document the analysis, negotiation,
and justification for each awarded contract.

Recommendations

We recommend that OJP:

1. Require the Prevention Council ensure that all timesheets and labor
   distribution reports are accurate and therefore personnel costs are
   appropriately charged to the DOJ award.

2. Remedy the $1,859 in questioned travel costs.

3. Require the Prevention Council to: (1) Improve its processes for
   identifying and allocating dual purpose expenses; and (2) Include in their
   formal procedures, a process for tracking and reconciling funds advanced
   to employees.

4. Remedy the $1,361 in unapproved computer equipment costs.

5. Require the Prevention Council to clearly document the analysis,
   negotiation, and justification for each awarded contract.




                                     12
            SCHEDULE OF DOLLAR-RELATED FINDINGS



QUESTIONED COSTS: 10                                           AMOUNT          PAGE
                                                                 ($)
Unsupported Costs

Other Direct Costs                                                    1,859        10

    Total Unsupported Costs                                         $1,859

Unallowable Costs

Other Direct Costs                                                    1,361       10
    Total Unallowable Costs                                         $1,361

Total Questioned Costs                                              $3,220




       10
           Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

                                            13
                                                        APPENDIX I

         OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the cooperative agreement reviewed were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the cooperative agreement. The objective of
our audit was to review performance in the following areas: (1) federal
financial reports and progress reports, (2) drawdowns, (3) budget
management and control, (4) expenditures, and (5) contractual
management.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

       Our audit concentrated on cooperative agreement no. 2010-DB-BX-
K023 in the amount of $2,400,000 to the National Crime Prevention Council
(Prevention Council) awarded by the Bureau of Justice Assistance. The
award is to assess the current awareness of targeted audiences within the
general public towards emerging crime trends in intellectual property crime,
mortgage fraud, and crimes against seniors. Further, the Prevention Council
is responsible for generating public awareness, motivating target audiences
to change their behavior to address emerging crime trends, providing
training and technical assistance for groups to create local awareness
campaigns, and sustaining the education campaign through partnerships

      We tested compliance with what we considered to be the most
important conditions of the award. Unless otherwise stated in our report,
the criteria we audit against are contained in the Office of Justice Programs
Financial Guide and the award documents.

      In conducting our audit, we performed sample testing in the following
areas:

   •   Drawdowns. We analyzed the Prevention Council’s overall
       drawdowns of $719,361 for the DOJ award from the inception of the
       award through November 28, 2011. The Prevention Council provided
       documentation supporting the drawdown requests.


                                      14
  •   Payroll. We reviewed the Prevention Council’s prior Single Audit
      reports, reviewed policies, and spoke with officials regarding
      timekeeping and charging personnel costs. To determine whether the
      Prevention Council’s personnel costs were supported and allowed, we
      judgmentally selected four non-consecutive pay periods to test. We
      analyzed the fringe rate to ensure the charges were consistent with
      the approved rate, and determined whether personnel costs were
      computed correctly, properly authorized, accurately recorded, and
      properly allocated. Further, we reviewed the composition and
      calculation of the provisional and final fringe rates, and we reviewed
      the application of the fringe rates to the allowable salary costs of the
      cooperative agreement.

  •   Transactions. To test the Prevention Council’s transactions for
      authorizations, vouchers, and supporting documentation of the
      expense, we judgmentally selected 33 transactions comprised of
      $371,035 in other direct costs. We analyzed the transactions to
      determine if the transactions were properly authorized, classified,
      recorded, supported, and charged to the cooperative agreement.

  •   Indirect Costs. We reviewed the composition and calculation of the
      provisional and final indirect rates. Additionally, we reviewed the
      application of the indirect rates to the allowable costs of the
      cooperative agreement.

  •   Contract Management. We interviewed the Prevention Council’s
      Program Manager for this award regarding the analysis, negotiations,
      and available documentation maintained for the selection of
      contractors. We obtained all the solicitations, request for proposals,
      negotiated contracts, and other supporting documentation for
      contractors performing services under the subject cooperative
      agreement.

      In addition, we reviewed the timeliness and accuracy of Financial
Status and Progress Reports and reviewed the internal controls of the
financial management system.




                                      15
                                                                                                    APPENDIX II

 NATIONAL CRIME PREVENTION COUNCIL’S RESPONSE TO
                THE DRAFT REPORT




April 26, 2012

U.S. Department of Justice
Office of the Inspector General
Attention: Mr. Troy Meyer
Washington Regional Audit Office
Regional Audit Manager
1300 N. 17th Street
Suite 3400
Arlington, VA 22209

Dear Mr. Meyer:

Below you will find the National Crime Prevention Council’s response to the audit
report on the Audit of Office of Justice Programs Bureau of Justice Assistance Award
to the National Crime Prevention Council (NCPC). We thank you and your audit
team for giving NCPC the insight into how to strengthen its accounting procedures,
internal controls, and grant management through your audit of our FY 2010 and
2011 Improving Public Safety: Responding to Today’s Emerging Trends project
(grant number 2010-DB-BX-K023).

We understand that the audit was triggered when the grant was supplemented in
September 2011 and that there were no allegations of wrongdoing. While NCPC
can always strive to improve, we are pleased that your team concluded that the
transactions it reviewed were generally properly authorized, classified, supported
and charged to the cooperative agreement, and that within a $2,400,000 award –
where 83 percent of the expenses were sampled – the audit team questioned two
costs.

Before responding to the recommendations in your report, we would like to take the
opportunity to provide an introduction to NCPC and our work under 2010-DB-BX-
K023.

2001 Jefferson Davis Highway
Suite 901
Arlington, VA 22202
Tel 202-466-6272
Fax 202-296-1356
www.ncpc.org


       To be the nation’s leader in helping people keep themselves, their families, and their communities safe from crime




                                                             16
Background
NCPC is a private, non-profit, tax-exempt 501(c)(3) organization, whose primary
mission is to be the nation’s leader in helping people keep themselves, their
families, and their communities safe from crime. We are funded through grants
and contracts from the federal government and from various private sources.
Through a variety of media and methods, NCPC enables communities and law
enforcement to work together to create safe environments.

Established in 1980 by officials from nine states, the Department of Justice and
other federal agencies, and private sources, the NCPC-led National Citizens’ Crime
Prevention Campaign and related initiatives have featured our beloved icon McGruff
the Crime Dog® and his signature message that encourages all Americans to “Take
a Bite Out of Crime®.”

Since the inception of the Campaign, NCPC has maintained a close partnership with
the Department of Justice (DOJ) and local law enforcement in creating cost-
effective and award-winning public service advertising, launching groundbreaking
and comprehensive support initiatives for crime-besieged cities, providing technical
assistance, producing and distributing hundreds of ready-to-use publications filled
with practical tips, expanding the reach of crime prevention tools through online
resources, conducting conferences and training, and more.

National Crime Prevention Activities under 2010-DB-BX-K023
NCPC works closely with state and local law enforcement and their national
organizations to anticipate and respond to persistent crime challenges, emerging
crime trends, and the changing crime prevention needs of communities and states
nation-wide.

Through a Byrne Competitive grant, NCPC is working with DOJ and a number of
other partners to conduct a crime prevention awareness campaign to address the
dangerous and costly problem of intellectual property crime such as pirating and
counterfeiting. This is just one of eight campaign topics covered in the Improving
Public Safety: Responding to Emerging Crime Trends series, which includes two
grants and two supplemental grants covering intellectual property theft, mortgage


2001 Jefferson Davis Highway
Suite 901
Arlington, VA 22202
Tel 202-466-6272
Fax 202-296-1356
www.ncpc.org


       To be the nation’s leader in helping people keep themselves, their families, and their communities safe from crime




                                                             17
fraud, vacant property, elder abuse, financial crimes against seniors, illegal drugs
(“bath salts”), National Motor Vehicle Title Information System (NMVTIS), and
bullying/cyberbullying.

A major focus within the K023 work for the past year and a half was the intellectual
property theft campaign – a DOJ priority. Our goal for the campaign is to engage
the public in demand reduction and decrease threats to public health and safety
and to increase awareness to the millions of jobs and ongoing detriment the
economy faces from intellectual property theft.

On November 29, 2011, the National Crime Prevention Council officially launched
the Intellectual Property Theft public education campaign at The White House. The
campaign was the result of extensive research, planning, outreach, and
communication with the U.S. DOJ and several affected industries.

NCPC applauds the DOJ for a well thought out, comprehensive grants program that
supports the Intellectual Property Crimes Task Force. In the last few years, OJP
has awarded grants to state and local law enforcement to encourage strong
investigations and effective prosecutions of Intellectual Property crimes, which pose
serious threats to Americans' health and safety and to our economy.

BJA and OJP had the wisdom to add a demand reduction component to this
comprehensive effort. In partnership with both agencies, late last fall NCPC
launched a public education campaign to increase public awareness of the
consequences of purchasing counterfeit and pirated products, including health and
safety, support for organized criminal elements and job loss.




 2001 Jefferson Davis Highway
 Suite 901
 Arlington, VA 22202
 Tel 202-466-6272
 Fax 202-296-1356
 www.ncpc.org


        To be the nation’s leader in helping people keep themselves, their families, and their communities safe from crime




                                                              18
                       OIG Recommendations from the Audit Report


1. Require the NCPC to ensure that all timesheets and labor distribution reports are
accurate and therefore personnel costs are appropriately charged to the DOJ award.

        Concur: NCPC has always been committed to accurate time and
        attendance reporting. The completion of timesheets is part of our
        mandatory new staff orientation and the all staff refresher we usually
        combine with the new staff orientation process. Based on your audit
        recommendation, NCPC has implemented updated procedures to
        ensure that the timesheets and labor distribution reports are accurate.
        The updated timesheet uses locked formulae to prevent calculation
        errors.

        Additionally, the supervisory accountant performs a comparison of the
        labor distribution and the timesheets to improve accuracy. Senior staff
        began reviewing the timesheet and instructions during your audit and
        NCPC is now using the new timesheet. See attachment.

2. Remedy the $1,859 in questioned travel costs.

        Concur: NCPC submitted a grant adjustment notice (GAN) on 04/23/2012.

        The travel expenses in question benefitted two grants with similar purpose
        2010-DB-BX-K023 and Responding to Intellectual Property Crime through
        Public Education and Outreach (2010-DB-BX-K088). Throughout this
        research period (going back to the initial drafting of the application for what
        would become grant K088), it was expected that additional funding to
        support the work to combat intellectual property theft through K023’s
        demand reduction campaign would be forthcoming.

        Everyone at DOJ and NCPC was under the impression, and worked with the
        understanding, that the additional funding would come in the form of a
        supplement to K023, the existing grant, and that IP-related funding would
        eventually be subject to a GAN to combine all the IP work into one grant.

2001 Jefferson Davis Highway
Suite 901
Arlington, VA 22202
Tel 202-466-6272
Fax 202-296-1356
www.ncpc.org


       To be the nation’s leader in helping people keep themselves, their families, and their communities safe from crime




                                                             19
        It was not until much later that we learned that approach would not be
        possible. NCPC has submitted a GAN to BJA to address this finding. See
        attachment.

3. Require the NCPC to: (1) Improve its processes for identifying and allocating
expenses that benefit two grant awards with similar goals; and (2) Include in their
formal procedures, a process for tracking and reconciling funds advanced to
employees.

        Concur:
        (1) NCPC staff who might incur travel expenses that benefit grant awards
        with similar purposes must track the hours spent, determine with the finance
        department the percentage that should be allocated to each grant, and
        clearly detail those calculations and tracking in the existing NCPC travel and
        expense reporting forms. NCPC has tools in place to address this issue and
        will continue to remind program managers about lessons learned through
        this audit in our regular meetings.

        (2) NCPC now records travel advances as employee receivables and
        reconciles the receivables at the end of each month to expense travel in the
        month it occurs. In addition, at the end of each grant, the finance
        department scrutinizes the general ledger by program to ensure
        appropriate and accurate reporting records are being maintained.

4. Remedy the $1,361 in unapproved computer equipment costs.

        Concur: NCPC has received written approval from BJA. Prior to the purchase
        of the computer equipment, the program manager had a brief, verbal
        conversation with the policy advisor to inform the advisor that computer
        upgrades and hardware were going to be necessary to advance the
        production of PSA work within the grant in a timely fashion.

        Because of our frugal exploration in pricing the equipment, NCPC remained
        under budget in the line item, providing BJA with timely deliverables with
        maximum cost effectiveness and efficiency. Based on the written approval,
        we hope this finding is resolved.

2001 Jefferson Davis Highway
Suite 901
Arlington, VA 22202
Tel 202-466-6272
Fax 202-296-1356
www.ncpc.org


       To be the nation’s leader in helping people keep themselves, their families, and their communities safe from crime




                                                             20
5. Require the NCPC to clearly document the analysis, negotiation, and justification
for each awarded contract.

         Concur: NCPC was in compliance with its procurement policy but
         agrees that it should have provided more detail in the documentation
         as to the cost analysis and negotiations with the three companies
         who responded to the RFP.

         NCPC is making further revisions to its procurement policy (which had
         been reviewed and updated in the last few years) in response to
         discussions during your audit. See attachment.




Thank you again for the opportunity to address the four findings of the audit report.
NCPC is as committed to strengthening our internal controls as it is to providing the
best in crime prevention information and materials.

When McGruff and NCPC started more than 30 years ago, people believed that
crime prevention was the sole responsibility of law enforcement. Through our work
with DOJ, local law enforcement and communities across the country, we have been
able to show them that crime prevention is everyone’s business.

We appreciate the Office of the Inspector General’s suggestions on how NCPC can
improve its grant management. We especially appreciate the professionalism your
team demonstrated throughout the audit.

Sincerely,



Ann M. Harkins
President and CEO

cc: Ms. Carrie Fleming, Audit Manager
cc: Ms. Linda Taylor, Office of Audit, Assessment, and Management


2001 Jefferson Davis Highway
Suite 901
Arlington, VA 22202
Tel 202-466-6272
Fax 202-296-1356
www.ncpc.org


       To be the nation’s leader in helping people keep themselves, their families, and their communities safe from crime




                                                             21
                                                                         APPENDIX III

 OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE DRAFT
                    AUDIT REPORT

                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                                Office of Audit, Assessment, and Management



                                                Washington, D.C. 20531




May 2, 2012


MEMORANDUM TO:                Troy M. Meyer
                              Regional Audit Manager
                              Washington Regional Audit Office
                              Office of the Inspector General

                              /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs
                             Bureau of Justice Assistance Award to the National Crime
                             Prevention Council

This memorandum is in reference to your correspondence, dated April 4, 2012, transmitting the
above-referenced draft audit report for the National Crime Prevention Council (NCPC). We
consider the subject report resolved and request written acceptance of this action from your
office.

The draft report contains five recommendations and $3,220 in questioned costs. The following is
the Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For
ease of review, the recommendations are restated in bold and are followed by our response.

1.     We recommend that OJP require the NCPC ensure that all timesheets and labor
       distribution reports are accurate and therefore personnel costs are appropriately
       charged to the U.S. Department of Justice award.



                                             22
       OJP agrees with the recommendation. We will coordinate with the NCPC to obtain a
       copy of procedures implemented to ensure that all timesheets and labor distribution
       reports are accurate, and that corresponding personnel costs are appropriately charged to
       U.S. Department of Justice (DOJ) awards.

2.     We recommend that OJP remedy the $1,859 in questioned travel costs.

       OJP agrees with the recommendation. We will coordinate with the NCPC to remedy the
       $1,859 in questioned travel costs. If adequate documentation cannot be provided, we will
       request that the NCPC return the funds to the DOJ; adjust their accounting records to
       remove the costs; and submit a revised Federal Financial Report (FFR) for award number
       2010-DB-BX-K023.

3.     We recommend that OJP require the NCPC to: (1) improve its processes for
       identifying and allocating dual purpose expenses; and (2) include in their formal
       procedures, a process for tracking and reconciling funds advanced to employees.

       OJP agrees with the recommendation. We will coordinate with the NCPC to obtain a
       copy of procedures implemented to ensure that the NCPC improves its processes for
       identifying and allocating dual purpose expenses; and includes a process for tracking and
       reconciling funds advanced to employees in their formal procedures.

4.     We recommend that OJP remedy the $1,361 in unapproved computer equipment
       costs.

       OJP agrees with the recommendation. We will coordinate with the NCPC to remedy the
       $1,361 in questioned costs related to unapproved computer equipment. If adequate
       documentation cannot be provided, we will request that the NCPC return the funds to the
       DOJ; adjust their accounting records to remove the costs; and submit a revised FFR for
       grant number 2010-DB-BX-K023.

5.     We recommend that OJP require the NCPC to clearly document the analysis,
       negotiation, and justification for each awarded contract.

       OJP agrees with the recommendation. We will coordinate with the NCPC to obtain a
       copy of procedures implemented to ensure that the analysis, negotiation, and justification
       for each contract is adequately documented.

We appreciate the opportunity to review and comment on the draft report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

       Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management




                                               23
Tracey Trautman
Acting Deputy Director for Programs
Bureau of Justice Assistance

Amanda LoCicero
Audit Liaison
Bureau of Justice Assistance

Melanie Davis
Grant Program Specialist
Bureau of Justice Assistance

Louise M. Duhamel, Ph.D.
Acting Director, Audit Liaison Group
Internal Review and Evaluation Office
Justice Management Division

Marcia L. Wallace
Director, Office of Operations – Audit Division
Office of the Inspector General

OJP Executive Secretariat
Control Number 20120388




                                        24
                                                            APPENDIX IV

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The Department of Justice (DOJ) Office of the Inspector General (OIG)
provided a draft of this audit report to the Office of Justice Programs (OJP)
and the National Crime Prevention Council (Prevention Council). The
responses are incorporated respectively as Appendices II and III of this final
report. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

   1. Resolved. OJP concurred with our recommendation that requires the
      Prevention Council ensure that all timesheets and labor distribution
      reports are accurate and therefore all personnel costs are
      appropriately charged to the DOJ award. OJP stated in its response
      that it will coordinate with the Prevention Council to obtain a copy of
      procedures implemented to ensure that all timesheets and labor
      distribution reports are accurate, and that corresponding personnel
      costs are appropriately charged to DOJ awards.

      The Prevention Council concurred with our recommendation and
      developed a new timesheet template and associated procedures to
      ensure that all timesheets and labor distribution reports are accurate
      and therefore all personnel costs are appropriately charged to the DOJ
      award. We reviewed the draft timesheet template, timesheet
      instructions, and the labor distribution process instructions, which
      when implemented should help ensure the accuracy of all timesheets
      and labor distribution reports. This recommendation can be closed
      when we receive evidence that: (1) the updated timesheet and
      timesheet instructions have been finalized and implemented by the
      Prevention Council, and (2) the labor distribution process has been
      finalized, issued, and incorporated into regular procedures by the
      Prevention Council.

   2. Resolved. OJP concurred with our recommendation and stated in its
      response that it will coordinate with the Prevention Council to remedy
      the $1,859 in questioned travel costs. If adequate documentation
      cannot be provided, OJP will request that the Prevention Council return
      the funds to DOJ; adjust their accounting records to remove the costs;
      and submit a revised Federal Financial Report (FFR) for award number
      2010-DB-BX-K023.



                                      25
   The Prevention Council concurred with our recommendation, stating
   that the travel expenses in question benefitted two awards with similar
   purposes. The Prevention Council submitted a proposed budget
   change through a grant adjustment notice to OJP’s Bureau of Justice
   Assistance (BJA) to address this finding. As of the date of this report,
   BJA has not approved the revised budget within the Grants
   Management System. Regardless of the budget change, the
   Prevention Council has not made a determination on how to allocate
   the costs between the two awards. This recommendation can be
   closed when we receive evidence that OJP has remedied $1,859 in
   questioned travel costs.

3. Resolved. OJP concurred with our recommendation to require the
   Prevention Council to: (1) improve its processes for identifying and
   allocating dual purpose expenses; and (2) include in their formal
   procedures, a process for tracking and reconciling funds advanced to
   employees. OJP stated that it will coordinate with the Prevention
   Council to obtain a copy of procedures implemented to ensure that the
   Prevention Council improves its processes for identifying and allocating
   dual purpose expenses; and includes a process for tracking and
   reconciling funds advanced to employees in their formal procedures.

   The Prevention Council concurred with our recommendation, stating
   that employees incurring travel expenses that benefit multiple awards
   with similar purposes must track the hours spent on each and work
   with the finance department to determine and document the allocation
   of these expenses to each award using existing travel and expense
   reporting forms and policies. Further, the Prevention Council stated in
   its response and provided evidence that it now records travel advances
   as employee receivables and reconciles the receivables at the end of
   each month to expense travel in the month it occurs. In addition, at
   the end of each grant, the Prevention Council’s finance department
   scrutinizes the general ledger by program to ensure appropriate and
   accurate reporting records are maintained.

   This recommendation can be closed when we receive evidence that the
   Prevention Council has developed and implemented finalized policies to
   improve its processes for identifying and allocating dual purpose
   expenses; and a copy of its updated formal procedures, which include
   a process for tracking and reconciling funds advanced to employees.




                                  26
4. Resolved. OJP concurred with our recommendation and stated in its
   response that it will coordinate with the Prevention Council to remedy
   the $1,361 in questioned costs related to unapproved computer
   equipment. If adequate documentation cannot be provided, OJP will
   request that the Prevention Council return the funds to DOJ, and
   submit a revised FFR for the award.

   The Prevention Council concurred with our recommendation to remedy
   the $1,361 in unapproved computer equipment costs. As part of its
   response, it provided an email correspondence dated April 12, 2012
   with an official from BJA who vaguely recalled a conversation and
   agreement with the plan to upgrade the computers. The official stated
   that they do not have any problems with the Prevention Council
   engaging in upgrades in order to produce the campaign within the
   timeframe DOJ required. Because these questioned costs did not
   exceed the line item budget for computer costs and a BJA official
   vaguely recalled and approved this purchase, this recommendation can
   be closed when we receive evidence of OJP’s formal approval of the
   purchase of the computer equipment, which will remedy $1,361 in
   questioned costs.

5. Resolved. OJP concurred with our recommendation and agreed to
   coordinate with the Prevention Council to obtain a copy of procedures
   implemented to ensure that the analysis, negotiation, and justification
   for each contract are adequately documented.

   The Prevention Council concurred with our recommendation and
   agrees that it should have included more detail in the documentation
   as to the cost analysis and negotiations for the awarded contracts. As
   part of its response, the Prevention Council provided a draft copy of its
   revised procurement policy. This recommendation can be closed when
   we receive evidence that the policy has been finalized and
   implemented to ensure that the analysis, negotiation, and justification
   are clearly documented for each awarded contract.




                                   27
